CERTIFICATE OF SERVICE
No. 21JUSTIN HAGGERTY,
Petitioner,
v.
UNITED STATES,
Respondent.
I, Jeffrey T. Green, do hereby certify that, on this 4th day of October, 2021, I
caused three copies and an electronic copy of the Petition for a Writ of Certiorari in
the foregoing case to be served by first class mail and by email, on the following
parties:
Brian H. Fletcher
Acting Solicitor General
UNITED STATES DEPARTMENT
OF JUSTICE
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
/s/ Jeffery T. Green
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8291

